No. 20-1214

 

 

IN THE

Supreme Court of the United States

FRED J. EYCHANER,
PETITIONER
U.

Crry OF CHICAGO, RESPONDENT

ON PETITION FOR A WRIT OF CERTIORARI
TO THE APPELLATE COURT OF ILLINOIS

REPLY BRIEF FOR THE PETITIONER

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
2,997 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on May 26, 2021.

Colin Casey oh,

Wilson-Epes Printing Co., Inc.
